CERTIFICATE OF SERVICE
No. 19-521
In the Supreme Court of the United States
CHARGEPOINT, INC .

v.

Petitioner,

SEMACONNECT, INC.,

Respondent.

I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 20th day of November, 2019, I caused three booklet copies of the Motion
for Leave to File and Brief of Jeremy C. Doerre as Amicus Curiae in Support of
Petitioner to be served by United States Postal Service Priority Mail, and an
electronic copy to be served by email, on the following counsel for the parties:
Carter G. Phillips
Counsel of Record
Sidley Austin LLP
1501 K Street, N.W.
Washington, DC 20005
cphillips@sidley.com

Marissa Rachel Ducca
Counsel of Record
Quinn Emanuel Urquhart & Sullivan
1300 I Street NW, Suite 900
Washington, DC 20005
marissaducca@quinnemanuel.com

Counsel for Petitioners

Counsel for Respondent

I further certify that all parties required to be served have been served.
I also certify that on this 20th day of November, 2019, I caused forty copies of
this brief in booklet format, together with one unbound copy on 8.5- x 11- inch paper,
to be sent through the United States Postal Service via Priority Mail to the Clerk of

Certificate of Service, p. 2.
this Court. In addition, this brief has been submitted electronically through the
Court's electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 20, 2019

JU

Jere my Cooper Doerre
Tillman Wright, PLLC
11325 N . Community
House Rd., Suite 250
Charlotte, NC 28277
j doerre@ti-la w.com
(704) 248-4883

